                  To Ensure the Customer Account Data
                Engine’s Success, Prescribed Management
                      Practices Need to Be Followed

                                  November 2004

                       Reference Number: 2005-20-005




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   November 22, 2004


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - To Ensure the Customer Account Data
                                    Engine’s Success, Prescribed Management Practices Need to
                                    Be Followed (Audit # 200420015)


      This report presents the results of our review of the delivery of the Customer Account
      Data Engine (CADE) Release 1. The overall objective of this review was to determine
      whether the Internal Revenue Service (IRS) and PRIME contractor1 would timely and
      effectively deliver the CADE Release 1 requirements – processing Forms 1040EZ2 for
      single taxpayers with refunds due or zero balances – in compliance with existing
      Enterprise Life Cycle (ELC)3 guidelines. This review is part of our Fiscal Year 2004
      audit plan for reviews of the IRS’ Business Systems Modernization efforts.
      In summary, the CADE is the foundation for managing taxpayer accounts in the IRS
      modernization plan. The CADE will consist of databases and related applications to
      replace the IRS’ existing Master File4 processing systems. The Master Files are the
      IRS’ central and official repository of taxpayer information. While the CADE program
      has experienced a series of setbacks and postponements since its beginning in
      September 1999, the IRS and the PRIME contractor have positioned the program for
      success. Specifically, improvement plans have been identified for CADE program
      management, requirements have been developed to meet CADE Release 1.1

      1
        The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
      companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
      information technology.
      2
        Form 1040EZ is a short version tax form entitled Income Tax Return for Single and Joint Filers With No
      Dependents.
      3
        The ELC establishes a set of repeatable processes and a system of reviews that reduce the risks of system
      development on Business Systems Modernization projects.
      4
        The IRS database that stores various types of taxpayer account information. This database includes individual,
      business, and employee plans and exempt organizations data.
                                                      2

objectives, the CADE Release 1.1 contract task orders adequately reflected the project
work performed, and the 2004 Pilot successfully simulated actual processes and
procedures.
As part of the deployment strategy to demonstrate a working CADE, the 2004 Pilot
included operating the new system in a simulation of the actual production environment.
However, a major upgrade to the CADE Release 1.1 application was installed after the
completion of the 2004 Pilot. Although this upgrade went through system integration
testing and deployment site readiness testing, it did not receive the level and volume of
performance testing to simulate the high-volume processing a pilot test offers. Because
the upgrade was not included in the high-volume 2004 Pilot testing, the CADE is at risk
to experience taxpayer account and refund processing problems during high volume
periods of the 2005 Filing Season.5
The CADE Operator’s Guide was needed for the 2004 Pilot, as well as for live
production that began in July 2004. The documentation within the CADE Operator’s
Guide and computer handbooks was incomplete and not always consistent with actual
CADE processing. Without adequate documentation describing the steps and
resources needed to operate the CADE, efficient and effective processing cannot be
assured.
The CADE currently includes manual processes that could be automated to achieve
processing efficiencies. These processes were not automated because they were not
included as requirements to operate the CADE. Automation of these processes would
help ensure consistency in operations, avoid human error, and reduce staff time needed
to perform the manual operations.
In October 2003, the Software Engineering Institute reported6 the CADE program did
not have a dedicated system architect to provide technical leadership. The report
concluded a dedicated system architect is critical to the success of the CADE program.
Without a dedicated system architect’s oversight and management, architecture
elements selected by CADE technical specialists may not effectively interoperate with
the IRS’ other highly specialized information systems elements.
The IRS needs to be able to fully restore CADE functionality in the event of a disaster
after system implementation. While the CADE Disaster Recovery Plan adequately
addressed disaster recovery requirements, these requirements were not tested prior to
implementation. Without full disaster recovery testing, the IRS may have difficulty
identifying the risks the CADE faces to be able to fully recover in the event of a disaster.
As a result, taxpayer data contained on the CADE may be lost, requiring the IRS to
contact taxpayers and/or their representatives to reacquire the lost information.
To help ensure the success of future CADE releases, we recommended the Chief
Information Officer (CIO) direct the Business Systems Modernization Office (BSMO) to

5
 The period from January through mid-April when most individual income tax returns are filed.
6
 Report of the Independent Technical Assessment on the Internal Revenue Service Business Systems
Modernization Customer Account Data Engine, October 2003.
                                           3

work with the PRIME contractor to ensure project development changes undergo
appropriate performance testing before the system is deployed; documentation for
future CADE releases is reviewed, tested, and approved before pilot testing and/or live
production are allowed to proceed; and inefficient manual processes are automated in
future CADE releases.
While plans to dedicate a system architect for the CADE program are under
consideration, the CIO needs to ensure the BSMO makes the system architecture
resources being acquired available on a full-time basis to the CADE program. Further,
to ensure the ability of the IRS to restore the CADE after a disaster with the least
disruption to the IRS mission, the CIO needs to ensure the IRS tests all aspects of the
CADE disaster recovery capabilities during the Annual IRS Disaster Recovery Test and
tests disaster recovery capabilities for future CADE releases prior to implementation.

Management’s Response: IRS management agreed with the report recommendations
and corrective actions are underway to address them. The CIO is planning to have
semiannual CADE releases in July and January. The July delivery will have the higher
risk and more complex functionality, while the January component will have the filing
season changes and any additional changes that capacity permits. Because the IRS
will have the returns from earlier in the filing season available for testing the July
release, it will conduct performance testing on that release using the highest volume
periods. Whether or not performance testing is also done for the January release will
be based on the specific nature of the changes that the IRS makes for that specific
delivery. Planned corrective actions also provide for having full operational
documentation available at the time of implementation for future releases and
implementing a number of changes to address known operational inefficiencies. The
CIO is pursuing the hiring of qualified engineering resources to further support the
CADE project. Lastly, the CIO is taking steps to make CADE a part of the annual
disaster recovery testing. Management’s complete response to the draft report is
included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                       To Ensure the Customer Account Data Engine’s Success,
                        Prescribed Management Practices Need to Be Followed




                                                  Table of Contents


Background ............................................................................................... Page 1
After Several Postponements, the Customer Account Data
Engine Program Has Positioned Itself for Success ................................... Page 3
Significant Software Changes Were Added to the Customer
Account Data Engine Release 1.1 ............................................................ Page 6
         Recommendation 1: ........................................................................Page 7

Improvements to the Customer Account Data Engine
Operator’s Guide Need to Be Completed.................................................. Page 8
         Recommendation 2: ........................................................................Page 9

Manual Processes Within the Customer Account Data Engine
Release 1.1 Need to Be Automated for Future Releases.......................... Page 9
         Recommendation 3: .......................................................................Page 10

The Customer Account Data Engine Program Does Not
Have a Dedicated System Architect .......................................................... Page 10
         Recommendation 4: .......................................................................Page 13

Disaster Recovery Capabilities Were Not Tested Prior to
Customer Account Data Engine Release 1.1 Implementation……………..Page 13
         Recommendations 5 and 6: ...........................................................Page 14

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 15
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Business System Modernization Challenge Issues
Relating to the Customer Account Data Engine ........................................ Page 19
Appendix V – Customer Account Data Engine Costs................................ Page 22
Appendix VI – Enterprise Life Cycle Overview .......................................... Page 24
Appendix VII – Management’s Response to the Draft Report ................... Page 28
             To Ensure the Customer Account Data Engine’s Success,
              Prescribed Management Practices Need to Be Followed

                              The Customer Account Data Engine (CADE) is the
Background
                              foundation for managing taxpayer accounts in the Internal
                              Revenue Service’s (IRS) modernization plan. The CADE
                              will consist of databases and related applications to replace
                              the IRS’ existing Master File processing systems.1 The
                              Master Files are the IRS’ central and official repository of
                              taxpayer information.
                              The CADE project will include two phases. The first phase
                              involves individual tax accounts and will be incrementally
                              deployed in five releases, each related to a specific taxpayer
                              segment, over several years. For example, Release 1 will
                              process electronic and paper income tax returns for single
                              filers with no dependents (Form 1040EZ).2 Release 2 will
                              add the U.S. Individual Income Tax Returns (Form 1040)
                              for families and taxpayers filing as head of household. At
                              the conclusion of Release 5, the CADE will have replaced
                              the Individual Master File (IMF),3 and the IRS will conduct
                              business much differently than it does today. The second
                              phase of the CADE will convert the Business Master File
                              tax accounts; however, development and implementation
                              dates for the second phase have not been established.
                              The IRS initiated the CADE project in September 1999.
                              The CADE Release 1 was initially planned for delivery in
                              January 2002. The IRS and PRIME contractor4 postponed
                              the planned delivery date of Release 1 several times, from
                              January 2002 until August 2003.
                              In July 2003, the IRS acknowledged Release 1 would not
                              meet its August 31, 2003, delivery date. This latest setback
                              occurred for several reasons. First, the Release 1 did not

                              1
                                The current system – referred to by the IRS as the Master
                              Files – contains taxpayer account and return data for individuals,
                              businesses, and employer retirement plans. A non-Master File also
                              exists for taxpayer data that cannot be stored in the other Master Files
                              due to data format and space limitations.
                              2
                                Form 1040EZ, Income Tax Return for Single and Joint Filers With No
                              Dependents, is a short version tax form for annual income tax returns.
                              3
                                The IRS database that maintains transactions or records of individual
                              tax accounts.
                              4
                                The PRIME contractor is the Computer Sciences Corporation, which
                              heads an alliance of leading technology companies brought together to
                              assist with the IRS’ efforts to modernize its computer systems and
                              related information technology.
                                                                                               Page 1
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                 have consistent, well-understood requirements. For
                 example, in January 2003, 4 years after the initial contract
                 award, the subcontractor, IBM, began a 4-month effort to
                 confirm the accuracy and completeness of Release 1
                 requirements. Other reasons include low computer program
                 productivity levels, IRS/PRIME contractor role confusion,
                 and noncompliance with management processes.
                 In 2003, the IRS launched a comprehensive review
                 consisting of three studies and a benchmarking analysis of
                 the Business Systems Modernization (BSM) program. In
                 addition, the PRIME contractor launched an internal study.
                 The studies confirmed the IRS modernization effort is a
                 massive, highly complex, high-risk program confronted by a
                 number of critical management and technological
                 challenges. To address the various assessment findings, the
                 IRS developed 46 action items5 for itself and the PRIME
                 contractor to complete at various times: 14 items within
                 30 days, 19 items within 90 days, and 13 items over the long
                 term. Two more issues were added after reviewing
                 recommendations from the IRS Oversight Board, making
                 the total 48 action issues. The 10 BSM Challenge Issues
                 related to the CADE are listed in Appendix IV.
                 On January 7, 2004, IRS executives approved a revised
                 CADE project schedule. In July, the PRIME contractor and
                 the BSM Office (BSMO) implemented the 2003 Filing
                 Season6 version of the CADE to use in the 2004 Filing
                 Season. Identified as Release 1.1, it will enable the IRS to
                 launch the CADE in a low-risk setting and gain valuable
                 operational experience. To date, the IRS has spent about
                 $86.8 million in developing the CADE. This includes about
                 $24.5 million managed under a firm fixed-price contract.7



                 5
                   In the fall of 2003, the IRS categorized the 46 action items into the
                 following 6 areas: 1) organization and roles, 2) key skills and
                 strengthening the team, 3) technology – architecture and engineering,
                 4) technology – software development productivity and quality,
                 5) acquisition, and 6) the CADE.
                 6
                   The filing season is the period from January through mid-April when
                 most individual income tax returns are filed.
                 7
                   A firm fixed-price contract provides for a price that is not subject to
                 any adjustment on the basis of the contractor’s cost experience in
                 performing the contract.
                                                                                    Page 2
                  To Ensure the Customer Account Data Engine’s Success,
                   Prescribed Management Practices Need to Be Followed

                                    Appendix V presents the history of the contract award
                                    amounts for the CADE project.
                                    This review is the third in a series of reviews of the
                                    CADE project development and deployment activities
                                    and was performed at the BSMO facilities in
                                    New Carrollton, Maryland, and at the IRS
                                    Martinsburg, West Virginia, Computing Center8 during the
                                    period April through July 2004. The audit was conducted in
                                    accordance with Government Auditing Standards. Detailed
                                    information on our audit objective, scope, and methodology
                                    is presented in Appendix I. Major contributors to the report
                                    are listed in Appendix II. Appendix VI presents an
                                    overview of the Enterprise Life Cycle (ELC).9
                                    While the CADE program has experienced a series of
After Several Postponements, the
                                    setbacks and postponements since its beginning in
Customer Account Data Engine
                                    September 1999, the IRS and the PRIME contractor have
Program Has Positioned Itself for
                                    positioned the program for success. Specifically,
Success
                                    improvement plans have been identified for CADE program
                                    management, requirements have been developed to meet
                                    CADE Release 1.1 objectives, the CADE Release 1.1
                                    contract task orders adequately reflected the project work
                                    performed, and the 2004 Pilot successfully simulated actual
                                    processes and procedures.
                                    The BSM Challenge Issues resulted in plans to improve
                                    CADE program management
                                    The BSM Challenges Plan Close-Out Report, dated
                                    May 1, 2004, provides for improved future CADE project
                                    development. The CADE-related BSM Challenge Issues
                                    and related closeout plans are described in Appendix IV.




                                    8
                                      IRS Computing Centers support tax processing and information
                                    management through a data processing and telecommunications
                                    infrastructure.
                                    9
                                      The ELC establishes a set of repeatable processes and a system of
                                    reviews, checkpoints, and milestones that reduce the risks of systems
                                    development and ensure alignment with the overall business strategy.
                                                                                                     Page 3
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                 Requirements have been developed to meet CADE
                 Release 1.1 objectives
                 One of the reasons cited for postponements and delays
                 encountered by the CADE program was the inadequate
                 definition of project requirements. To address this concern,
                 we reviewed the project requirements contained in the
                 CADE Business System Design Report. The design report
                 identifies over 900 requirements for Release 1.1. We
                 judgmentally sampled these requirements and determined
                 they were adequately tested and/or defined in CADE project
                 documentation. We determined the requirements were
                 adequately developed by tracing them to documentation of
                 the CADE project’s systems integration testing,10
                 deployment site readiness testing,11 and security testing.
                 These tests indicated the requirements allow the CADE
                 Release 1.1 to achieve its objectives.
                 In addition, we performed reviews to determine whether all
                 essential Form 1040EZ requirements were adequately
                 included in the CADE. To accomplish this we successfully
                 traced the information from the 12 line items on the
                 Form 1040EZ to the CADE Business System Design
                 Report.
                 The CADE Release 1.1 contract task orders adequately
                 reflected the project work planned
                 PRIME contract administration is a concern cited by both
                 the IRS and the IRS Oversight Board. We reviewed the
                 CADE Release 1.1 task order provisions and deliverables
                 and noted several contract administration strengths. For
                 example, CADE work transferred from an earlier task order
                 included an appropriate transfer of funding to the current
                 Release 1.1 task order. In addition, contract negotiations
                 secured a $2.7 million reduction in the Release 1.1 costs
                 from the contractor due to CADE Release 1.0 work which
                 was deferred to a later release of the CADE.


                 10
                    Systems integration testing ensures all system components (hardware
                 and software) are working correctly and collectively with other related
                 or dependent systems.
                 11
                    Deployment site readiness testing assesses whether the system as
                 installed is working well enough to support enterprise-wide business
                 use.
                                                                                  Page 4
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                 The 2004 CADE Pilot successfully simulated actual
                 processes and procedures
                 As part of the deployment strategy to demonstrate a working
                 CADE, the 2004 CADE Pilot plan included operating the
                 new system in a simulation of the actual production
                 environment. The 2004 Pilot included an initialization12
                 procedure, daily/weekly processing, timely referral to the
                 Department of the Treasury Financial Management Service
                 (FMS) to generate tax refunds, and the ability to update the
                 information to taxpayer accounts.
                 The 2004 Pilot scenarios used previously captured
                 transaction data from the 2004 Filing Season. It was the
                 first opportunity for the IRS employees to schedule and
                 submit the CADE jobs in a shoulder-to-shoulder
                 environment. Unlike the 2003 Pilot, in which the PRIME
                 contractor was primarily responsible for the scheduling and
                 execution of the jobs, the IRS performed these activities
                 with the PRIME team members assisting their efforts. This
                 shift of responsibility from the PRIME contractor to the IRS
                 occurred gradually during the 2004 Pilot as the IRS
                 employees became more comfortable with the CADE.
                 During the week of May 17, 2004, IRS employees
                 successfully ran the 2004 Pilot and completed a week’s
                 worth of simulated tax return processing. Upon completion
                 of this processing, CADE-generated data and reports were
                 successfully validated with corresponding IMF-generated
                 data and reports. Additionally, on May 24, 2004, the IRS
                 received correspondence from the FMS that all CADE test
                 files successfully passed through the FMS internal systems.
                 Had the CADE been in production rather than pilot mode,
                 the FMS stated it would have processed actual refunds and
                 electronic transfers using data provided by the CADE.
                 Although the 2004 Pilot successfully operated as planned, it
                 did not run the final version of software for CADE
                 Release 1.1. This report addresses areas of concern



                 12
                   Initialization is the collecting of data for CADE-eligible accounts
                 from current production environment systems, converting the data into
                 CADE format, and populating CADE database tables.
                                                                                 Page 5
                To Ensure the Customer Account Data Engine’s Success,
                 Prescribed Management Practices Need to Be Followed

                                 requiring IRS and PRIME contractor attention to ensure
                                 successful future deployments.
                                 The 2004 CADE Pilot testing activities included validating
Significant Software Changes
                                 business expectations, processing timelines, performance
Were Added to the Customer
                                 assumptions, balancing and control of tax returns and
Account Data Engine
                                 refunds, refund processing, and CADE interfaces with other
Release 1.1
                                 existing and modernized project applications. The CADE
                                 project team completed the 2004 Pilot testing of Release 1.1
                                 on May 26, 2004. A major upgrade to the CADE
                                 Release 1.1 application, called the Delta Build, was installed
                                 on June 18, 2004. The Delta Build included numerous
                                 changes to the CADE Release 1.1, including changes known
                                 since at least the start of the 2003 Pilot in July 2002. The
                                 changes include improvements to the Job Control
                                 Language13 and file and naming standards, as well as
                                 modifications to address verification software14 used within
                                 the CADE.
                                 Although the Delta Build went through systems integration
                                 testing and deployment site readiness testing, it did not
                                 receive the level and volume of performance testing,
                                 simulating high-volume processing a pilot test offers. Also,
                                 a CADE subject-matter expert advised us the changes made
                                 to the CADE with the Delta Build were broader and more
                                 significant than all the changes made to the CADE since the
                                 2003 Pilot. Because the issues were more complex than the
                                 PRIME contractor originally thought, the Delta Build was
                                 postponed until after the 2004 Pilot so the project could stay
                                 on schedule for delivery by the end of September 2004.
                                 The CADE staff performed an independent verification of
                                 the data processed by the Delta Build. However, the
                                 absence of complete testing of the CADE Release 1.1 in a
                                 production environment added to the risk of unforeseen
                                 errors occurring during actual processing. In fact, when the


                                 13
                                    Job Control Language is a means of communication between the
                                 programmer/analyst and the operating system. It consists of control
                                 statements that introduce a job to the operating system, provide
                                 accounting information, direct the operating system, request hardware
                                 devices, and execute a job.
                                 14
                                    The address verification software called Finalist® is used to perfect
                                 and standardize the address fields within the Master File data prior to
                                 their loading into the CADE.
                                                                                                    Page 6
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                 CADE Release 1.1 began processing tax returns on
                 July 1, 2004, it experienced a critical failure resulting in the
                 CADE being taken out of production on July 3, 2004. The
                 failure was resolved and the CADE resumed processing on
                 July 14, 2004. By August 2, 2004, the CADE had
                 processed 1,136 Forms 1040EZ.
                 Although tax return and refund processing was successfully
                 reverted to the IRS’ existing Master File processing
                 systems, additional Delta Build testing and reviews were
                 needed prior to reinitiating CADE Release 1.1 processing.
                 Further, because the Delta Build was not included in the
                 high volume 2004 Pilot testing, the CADE is at risk to
                 experience taxpayer account and refund processing
                 problems during high volume periods of the 2005 Filing
                 Season.

                 Recommendation

                 1. The Chief Information Officer (CIO) should direct the
                    BSMO to work with the PRIME contractor to ensure
                    future project development changes undergo appropriate
                    performance testing, simulating high-volume
                    processing, before deploying the system.
                 Management’s Response: The CIO is planning to have
                 semiannual CADE releases in July and January. The July
                 delivery will have the higher risk and more complex
                 functionality, while the January component will have the
                 filing season changes and any additional changes that
                 capacity permits. Because the IRS will have the returns
                 from earlier in the filing season available for testing the July
                 release, it will conduct performance testing on that release
                 using the highest volume periods. Whether or not
                 performance testing is also done on the January release will
                 be based on the specific nature of the changes that it makes
                 for that specific delivery.




                                                                           Page 7
                 To Ensure the Customer Account Data Engine’s Success,
                  Prescribed Management Practices Need to Be Followed

                                  In March 2003, we reported15 that improvements to the
Improvements to the Customer
                                  CADE Operator’s Guide, used by the IRS for testing and
Account Data Engine Operator’s
                                  operating the CADE, would help ensure an effective
Guide Need to Be Completed
                                  Release 1 deployment. The BSMO agreed and reported on
                                  April 6, 2004, that the CADE Operator’s Guide was
                                  completed and approved by the PRIME contractor’s Change
                                  Control Board as of February 23, 2004.
                                  The CADE 2004 Pilot plan emphasized following the
                                  documentation and procedures described in the CADE
                                  Operator’s Guide. It also stated the pilot participants should
                                  understand and follow the delivered documentation.
                                  The CADE Operator’s Guide was needed for the
                                  2004 CADE Pilot, as well as for live production that
                                  began in July 2004. However, the CADE Release 1.1
                                  task order did not schedule delivery of the Guide until
                                  September 15, 2004.
                                  The CADE subject-matter expert advised us the
                                  documentation within the CADE Operator’s Guide and
                                  computer handbooks was incomplete and not always
                                  consistent with actual CADE processing. For example, the
                                  System Flows Appendix of the CADE Operator’s Guide
                                  provides details to IRS computer operators to restore CADE
                                  processing after a tax processing error is identified. The
                                  2004 CADE Pilot experienced two instances in which daily
                                  cycle processing experienced problems and the CADE had
                                  to be restored so the daily processing could be rerun.
                                  However, the CADE Operator’s Guide could not be used to
                                  initiate rerunning the CADE because the System Flows
                                  Appendix did not specify what steps to follow to identify
                                  the files or data needing deletion to fix the CADE
                                  processing problems.
                                  Live production may be affected by the incomplete and
                                  inconsistent documentation in the CADE Operator’s Guide.
                                  A draft version of the CADE Operator’s Guide was issued
                                  June 21, 2004, which included updated procedures to
                                  provide complete and consistent instructions to operate the
                                  CADE. Subsequent to stopping the CADE’s live

                                  15
                                    Adhering to Established Development Guidelines Will Help to Ensure
                                  the Customer Account Data Engine Meets Expectations (Reference
                                  Number 2003-20-089, dated March 2003).
                                                                                               Page 8
                  To Ensure the Customer Account Data Engine’s Success,
                   Prescribed Management Practices Need to Be Followed

                                   production on July 3, 2004, a CADE official from the IRS
                                   identified critical agreed to revisions that were not made to
                                   the June 21, 2004, CADE Operator’s Guide. Without
                                   adequate documentation describing the steps and resources
                                   needed to operate the CADE, efficient and effective
                                   processing cannot be assured.

                                   Recommendation

                                   2. The CIO should direct the BSMO to ensure pilot and
                                      production operational documentation for future CADE
                                      releases is reviewed, tested, and approved before both
                                      the pilot test and live production are allowed to proceed.
                                      This review should also ensure the corrective action to
                                      our March 2003 report is incorporated into this review
                                      and the IRS’ minimum documentation standards are
                                      completed and met in current and future CADE releases.
                                   Management’s Response: The CIO plans to have the full
                                   operational documentation available at the time of
                                   implementation for future releases.
                                   The IRS engaged the PRIME contractor to design and build
Manual Processes Within the
                                   the various modernization projects, including the CADE.
Customer Account Data Engine
                                   The PRIME contractor was selected to provide the IRS with
Release 1.1 Need to Be Automated
                                   access to commercial best practices, guarantee access to
for Future Releases
                                   viable alternative solutions, and streamline the system
                                   acquisition process.
                                   Although the PRIME contractor was hired to provide the
                                   qualities above, the CADE currently includes manual
                                   processes that could be automated to achieve processing
                                   efficiencies. These processes were not automated because
                                   they were not included as requirements to operate the
                                   CADE.
                                   CADE project officials advised us of two examples of
                                   manual processes required if normal CADE operations are
                                   interrupted and processing needs to be rerun:
                                      •   The process used to initiate the CADE computer
                                          programs is currently performed manually although
                                          the process could be automated.
                                      •   CADE refund processing automatically starts daily
                                          at 9 P.M. eastern standard time. A lengthy manual
                                                                                           Page 9
                 To Ensure the Customer Account Data Engine’s Success,
                  Prescribed Management Practices Need to Be Followed

                                          process must be invoked if this processing requires
                                          initiation at a different time.
                                  CADE project officials advised us the automation of these
                                  CADE manual processes was overlooked during the
                                  requirements development process because of less than
                                  adequate communications with the PRIME contractor.
                                  Because these types of manual processes were not identified
                                  for automation in the project, the contract did not include
                                  this development activity.
                                  The efficiency of CADE processing could be improved if
                                  manual processes are automated. Automation of these
                                  processes would help ensure consistency in operations,
                                  avoid human error, and reduce staff time needed to perform
                                  the manual operations.

                                  Recommendation

                                  3. The CIO should direct the BSMO to ensure inefficient
                                     manual processes, including the processes cited above,
                                     are automated in future CADE releases.
                                  Management’s Response: The CIO plans a number of
                                  specific changes for the January 2005 and July 2005 CADE
                                  release deliveries to address known operational
                                  inefficiencies.
                                  As one of the three studies initiated by the IRS during the
The Customer Account Data
                                  summer of 2003, the Software Engineering Institute (SEI)
Engine Program Does Not Have a
                                  performed an independent assessment of the CADE
Dedicated System Architect
                                  program.16 One of the principal findings of the SEI report
                                  was that the CADE program did not have a dedicated
                                  system architect to provide technical leadership. The SEI
                                  reported the appointment of a dedicated system architect is
                                  critical to the success of the CADE program. The BSM
                                  Enterprise Architecture group provided the CADE an
                                  individual to perform system architect duties only on an as
                                  needed basis. This person was not assigned solely to the
                                  CADE program.


                                  16
                                    Report of the Independent Technical Assessment on the Internal
                                  Revenue Service Business Systems Modernization Customer Account
                                  Data Engine, dated October 2003.
                                                                                             Page 10
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                 Comprehensive enterprise architecture17 efforts reduce risk
                 to information technology projects by providing a solid
                 foundation upon which to build and deploy IRS business
                 solutions. Sound enterprise architecture practices include
                 established infrastructure standards, clearly defined
                 application architecture, and a body of knowledge regarding
                 best practices in project design. Sound enterprise
                 architecture practices also can eliminate much of the risk
                 involved in custom application development, as well as the
                 deployment of commercial off-the-shelf products. The
                 system architect has the task of implementing and
                 coordinating these efforts.
                 The CADE program has not had consistent and
                 comprehensive communications, design, and development
                 throughout its history. The teamwork, communications, and
                 relationship between the IRS and the PRIME contractor did
                 not always promote efficiency within the CADE program.
                 The absence of a dedicated CADE system architect
                 contributed to the inability of the IRS and the PRIME
                 contractor to communicate effectively to refine and validate
                 the CADE requirements. This led to inconsistent,
                 misunderstood requirements.
                 For example, the PRIME contractor did not understand the
                 standards necessary in the IRS to implement address
                 verification software. Several versions were used in the
                 CADE pilot activities that failed. The failure was realized
                 when the IRS determined the PRIME contractor was using
                 United States Postal Service, not IRS, standards for
                 addressing. An IRS system architect could have identified
                 the necessary standard at the inception of this portion of the
                 application development.
                 We also identified communication inefficiencies between
                 BSMO executives and CADE project officials. For
                 example, in January 2004, BSMO executives presented
                 CADE information to the IRS Oversight Board regarding
                 the content and timetables for the delivery of three CADE


                 17
                    The architecture is the design of a computer system. It sets the
                 standard for all devices that connect to it and all the software that runs
                 on it. The modernized architecture guides the organization of the BSM
                 effort.
                                                                                   Page 11
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                 subreleases. One month later, we met with representatives
                 from the CADE project and the responsible IRS business
                 unit to discuss the three subreleases. At that meeting, the
                 CADE and IRS business representatives stated they did not
                 know a third CADE subrelease was planned for delivery
                 in 2006.
                 The BSM Challenge process addressed weaknesses
                 identified in the SEI’s report on the CADE related to the
                 need for a dedicated system architect. In response to this
                 Challenge, the BSMO received funds to fill 11 system
                 architect/system engineering positions for the BSM effort.
                 Five positions were planned to be added during late Fiscal
                 Year 2004 and six positions will be added in Fiscal
                 Year 2005. Plans to dedicate a system architect for the
                 CADE program are under consideration.
                 Without a dedicated system architect, technology choices
                 can be inappropriate for any number of reasons.
                 Architecture elements selected by CADE technical
                 specialists may not interoperate as well as expected with the
                 IRS’ other highly specialized information systems elements.
                 At the project level, inappropriate application architecture
                 can create integration difficulties or cause a system to fail
                 under production volumes.
                 By dedicating a system architect, the CADE program will
                 have an accountable resource to manage the:
                 •   CADE technical issues.
                 •   Impact of proposed solutions to technical issues on the
                     IRS’ current and future modernization projects,
                     including the impact on existing legacy systems.
                 •   Development of the CADE to ensure compliance with
                     IRS’ Enterprise Architecture.
                 •   Development of the CADE to facilitate the IRS’
                     business processes.
                 •   Communication of project requirements and
                     development with the PRIME contractor and other
                     interested stakeholders.



                                                                       Page 12
                  To Ensure the Customer Account Data Engine’s Success,
                   Prescribed Management Practices Need to Be Followed

                                   Recommendation

                                   4. The CIO should ensure the BSMO makes the system
                                      architecture resources being acquired available to the
                                      CADE program on a full-time basis.
                                   Management’s Response: The CIO has been recruiting for
                                   the last year to find qualified engineering resources. The
                                   BSMO has hired a few new employees with the appropriate
                                   experience, some of which are dedicated to the CADE
                                   project. However, the IRS has found it difficult to find and
                                   attract qualified individuals to work for the Government.
                                   Until the additional staffing is onboard, the BSMO is
                                   providing the CADE engineering/architecture support from
                                   the existing Enterprise Architecture team and MITRE.18
                                   The IRS needs to be able to fully restore CADE
Disaster Recovery Capabilities
                                   functionality in the event of a disaster after system
Were Not Tested Prior to
                                   implementation. Our review of the draft CADE Release 1.1
Customer Account Data Engine
                                   system requirements showed that, while the CADE Disaster
Release 1.1 Implementation
                                   Recovery Plan adequately addressed disaster recovery
                                   requirements, these requirements were not tested prior to
                                   CADE Release 1.1 implementation.
                                   According to project officials, the CADE disaster recovery
                                   capabilities will be tested in the fall of 2004 as part the
                                   Annual IRS Disaster Recovery Test. CADE disaster
                                   recovery testing plans executed in the fall of 2004 will
                                   ensure the CADE will be able to resume processing should a
                                   disruption occur during the 2005 Filing Season when
                                   processing levels will be significantly higher.
                                   Without full disaster recovery testing, the IRS may have
                                   difficulty identifying the risks the CADE faces to be able to
                                   fully recover in the event of a disaster. As a result, taxpayer
                                   data contained on the CADE may be lost, requiring the IRS
                                   to contact taxpayers and/or the representatives to reacquire
                                   the lost information.




                                   18
                                        MITRE is the IRS’ modernization strategic support contractor.
                                                                                                    Page 13
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                 Recommendations

                 To ensure the ability of the IRS to restore the CADE after a
                 disaster with the least disruption to the IRS mission, the
                 CIO needs to ensure:
                 5. All aspects of the CADE disaster recovery capabilities
                    are tested during the Annual IRS Disaster Recovery
                    Test.

                 Management’s Response: The Director, Enterprise
                 Computing Center (ECC), tested the recovery and
                 restoration of key components of CADE processing in order
                 to ensure a high confidence level in the IRS’ ability to
                 recover the CADE in the event of a true disaster. The test
                 was conducted during the weeks of October 18, 2004, and
                 October 25, 2004. There were some issues with the CADE
                 requiring correction.
                 6. Disaster recovery capabilities for future releases of the
                    CADE are fully tested prior to implementation.

                 Management’s Response: The CIO will have the Enterprise
                 Operations organization work with the ECC to ensure that
                 CADE disaster recovery testing is included in the annual
                 disaster recovery testing performed in the fall of each year.
                 Since most new CADE functionality will be deployed in the
                 July release, the fall testing would be timely, i.e., prior to
                 the start of the new filing season when the IRS will
                 encounter high volumes.




                                                                        Page 14
                    To Ensure the Customer Account Data Engine’s Success,
                     Prescribed Management Practices Need to Be Followed

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology
The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) and PRIME contractor1 would timely and effectively deliver the Customer Account Data
Engine (CADE) Release 1 requirements – processing Forms 1040EZ2 for single taxpayers with
refunds due or zero balances – in compliance with existing Enterprise Life Cycle (ELC) 3
guidelines. This review is part of our Fiscal Year 2004 Audit Plan for reviews of the IRS’
Business Systems Modernization (BSM) efforts.
To accomplish our objective, we reviewed available documentation and interviewed PRIME
contractor, IRS Information Technology Services office, and BSM Office (BMSO) executives,
managers, and analysts. We:
I.      Determined whether all essential Form 1040EZ current processing environment
        requirements were identified and included for the CADE Release 1.1 using the guidance
        provided in the ELC.
        A. Reviewed the System Requirements Model (Section 3) of the CADE System
           Engineering Model View for Release 1.0, dated February 3, 2004, which contained
           933 requirements. The requirements were divided into 12 sections.
        B. Judgmentally sampled 93 of the 933 requirements to assess whether the CADE
           Release 1.1 objectives would be achieved. We used judgmental sampling because we
           did not plan to project results across the population. The sample of requirements
           included:
             1. Reviewing one requirement from nine requirement sections (nine total
                requirements).
             2. Reviewing all requirements from 3 sections (57 requirements) that did not include
                adequate documentation tracing the requirement to the tests of requirements.
             3. Reviewing all Financial Management System related requirements
                (27 requirements).




1
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  Form 1040EZ is a short version tax form entitled Income Tax Return for Single and Joint Filers With No
Dependents.
3
  The ELC establishes a set of repeatable processes and a system of reviews that reduce the risks of system
development on Business Systems Modernization projects.
                                                                                                        Page 15
                    To Ensure the Customer Account Data Engine’s Success,
                     Prescribed Management Practices Need to Be Followed

II.     Reviewed the 2004 CADE Pilot activities to determine whether the BSMO and the
        PRIME contractor used these results to successfully deliver CADE taxpayer benefits.4
III.    Reviewed the CADE Release 1.1 contract task order provisions to determine whether
        contracted requirements were delivered.
IV.     Determined the benefits the BSM Challenge Issues results provided or planned to be
        provided for the CADE project development.




4
 The CADE will promote more electronic filing by implementing daily cycles and processing refunds faster. The
CADE data will allow on-line access to taxpayer accounts, thus improving both speed and accuracy. Identification
of problems as promptly as possible will reduce the burden on taxpayers.


                                                                                                         Page 16
                 To Ensure the Customer Account Data Engine’s Success,
                  Prescribed Management Practices Need to Be Followed

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Bruce Polidori, Senior Auditor
Lawrence White, Senior Auditor
Louis V. Zullo, Senior Auditor
Kim McManis, Auditor




                                                                                         Page 17
                To Ensure the Customer Account Data Engine’s Success,
                 Prescribed Management Practices Need to Be Followed

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Modernization Management OS:CIO:MM
Director, Stakeholder Management Division OS:CIO:SM
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 18
                     To Ensure the Customer Account Data Engine’s Success,
                      Prescribed Management Practices Need to Be Followed

                                                                                                    Appendix IV


                       Business System Modernization Challenge Issues
                        Relating to the Customer Account Data Engine
    The Business Systems Modernization (BSM) Challenges Plan Close-Out Report, dated
    May 1, 2004, provides for or plans to provide for improved future Customer Account Data
    Engine (CADE) project development. The CADE-related BSM Challenge Issues and related
    close-out plans include:
    − Make business owner and program director accountable for project
      success.
         The BSM Office (BSMO) is restructuring its management and governance structure to
         institutionalize the roles of Business Leader1 (replacing Business Owner), Business
         Requirements Director,2 Program Director, and Program Manager.
    − Implement short duration, discrete "Tiger Teams" in the CADE, Integrated
      Financial System,3 and e-Services4 projects.
         The CADE Tiger Team5 conducted a comprehensive analysis of the CADE project and
         provided recommendations in a report about managing defects, contracts, and program
         execution.
    − Designate business architects for all projects to support business insight
      required throughout the project life.
         The role of the Business Architects (title changed to Business Requirements Director –
         see footnote 2) and other program/project management positions were defined as part of
         the larger governance structure reorganization.




1
  The Business Leader engages with the modernization technology team to help determine how to best apply
technology to improve service to taxpayers, support enforcement activities, and improve compliance.
2
  This position is the point of accountability on behalf of the Business Leader for ensuring business requirements
and process engineering are the central focus in making project decisions.
3
  The Integrated Financial System project replaces the Internal Revenue Service’s (IRS) current inventory of
antiquated financial systems with a single integrated system that connects the agency’s accounting, performance,
budgeting, and procurement functions.
4
  The e-Services project modernizes the way taxpayers transact and communicate with the IRS by creating and
marketing easy-to-use electronic products and services.
5
  Tiger teams and subteams consisted of highly experienced professionals from various domains in the Internal
Revenue Service, Computer Sciences Corporation, IBM, etc. The teams collaborated on findings and
recommendations in many areas (e.g., architecture and system design, building and design of code, testing and
deployment, and documentation and performance-tuning for the CADE).
                                                                                                            Page 19
                    To Ensure the Customer Account Data Engine’s Success,
                     Prescribed Management Practices Need to Be Followed



    − Assign business owners and architects to validate business unit
      participation and accountability in projects.
        Roles of the Business Leader, the Business Requirements Director, the BSM Program
        Director, the Acquisition Project Manager,6 and the Information Technology Services
        Coordinator have been defined and socialized among the BSM, the Modernization and
        Information Technology Services organization, and the business (operating
        division/function) executives.
    − Align critical engineering talent to most critical projects.
        Key engineering talent from MITRE,7 the PRIME contractor,8 and other appropriate
        resources were identified; the impact of realigning this talent is being addressed.
    − Identify key productivity and quality metrics across the life cycle based on
      industry standards.
        A joint Internal Revenue Service (IRS), PRIME contractor, and MITRE Tiger Team
        developed the PRIME Enterprise Life Cycle (ELC) – the key productivity and quality
        measures roll-out plan for effective implementation and institutionalization associated
        with ELC Milestone 4.9
    − Move acceptance testing to be earlier in the life cycle.
        The PRIME contractor’s testing and deployment office collaborated with the IRS to
        develop a combined Systems Integration Test/Systems Acceptance Test10 for the CADE
        Release 1.1.
    − Establish independent architecture and engineering team of IRS and
      contractor business architects and system engineers.
        The IRS and the PRIME contractor formed the Joint Engineering Team (JET)11 consisting
        of business architects and system engineers.



6
  This position, under the BSM Program Director, is responsible for successful day-to-day project management and
execution, working with the Business Requirements Director and Contractor Project Manager to ensure system
requirements are aligned with business requirements.
7
  MITRE is the IRS’ modernization strategic support contractor.
8
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
9
  See Appendix VI for a definition of the ELC and its various milestones.
10
   System integration testing ensures all system components (hardware and software) are working correctly and
collectively with other related or dependant systems. Systems acceptance testing determines whether a system
meets user and contract requirements and objectives.
11
   The JET was formed as a means to organize the senior engineers assigned to the CADE.
                                                                                                        Page 20
                     To Ensure the Customer Account Data Engine’s Success,
                      Prescribed Management Practices Need to Be Followed

     − Clearly define business requirements and tightly manage them to control
       scope.
         The BSMO worked with the PRIME contractor and representatives from various process
         teams to define Milestone 4A12 exit criteria, obtain buy-in from key stakeholders, and
         re-define ELC requirements and milestone exit criteria.
     − Identify "blockers" on current contracting actions.
         Blockers were identified on October 24, 2003, which centered on business integration,
         systems integration, and the PRIME contractor’s program management office activities.




12
  The ELC will establish a new milestone called “Milestone 4a.” In this milestone, time and effort will be devoted
to ensure business requirements are fully developed and the technical infrastructure is fully detailed. This detail will
significantly increase the opportunities for the use of firm fixed-price contracts.




                                                                                                               Page 21
                       To Ensure the Customer Account Data Engine’s Success,
                        Prescribed Management Practices Need to Be Followed

                                                                                                     Appendix V


                                 Customer Account Data Engine Costs

                Customer Account Data Engine (CADE) Costs Through Release 1.1
Task Order Number                        Period of Performance                                     Cost
            0019               1999 – 2000 (specific dates not available)                             $ 2,166,234
            0037               April 24, 2000 – August 31, 2000                                       $ 3,011,000
            0054               September 1, 2000 – April 30, 2001                                    $ 13,971,165
            0069               June 1, 2001 – August 31, 2001                                         $ 5,700,000
            0071               May 1, 2001 – June 30, 2001                                            $ 1,534,012
            0073               September 1, 2001 – August 31, 2004                                  $ 60,458,1541

                                                                                          Total $ 86,840,565
Source: CADE contract task orders from the Internal Revenue Service (IRS) Procurement Office.

                                    Actual and Estimated Costs for the
                                       CADE Through Release 1.3
           Release 1 Project Phase                   Completed/ Scheduled*               Cost/ Estimate**
Milestone 1                                          December 31, 1999                              $ 5,116,000
Milestones 2 & 3                                     June 30, 2001                                 $ 19,267,000
Milestone 4                                          July 30, 2004                                 $ 58,838,000
Filing Season2 2003/2004 (Release 1.1)               August 5, 2004                                $ 24,550,000
Filing Season 2005 (Release 1.2)                     December 31, 2004*                            $ 23,403,000**
Milestone 5                                          June 30, 2005*                                $ 17,450,000**
Filing Season 2006(Release 1.3)                      December 31, 2005*                            $ 27,000,000**
                                                                                        Total $175,624,000
Source: Business Systems Modernization (BSM) Expenditure Plans from the IRS as of July 2004.
* Scheduled for future release development.
** Estimated costs for future release development.


1
    Task order 0073 includes $24,550,000 managed under a firm-fixed-price contract.
2
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                           Page 22
                   To Ensure the Customer Account Data Engine’s Success,
                    Prescribed Management Practices Need to Be Followed



                                Delays to CADE Release 1 Delivery
            Release 1 Delivery Schedule Revisions                     Cumulative Delay
                         December 2001                              Original Date Scheduled
                           August 2003                                  20 month delay
                            April 2004                                  28 month delay
            July 2004 (Final Release 1.1 Delivery)                      31 month delay
Source: The IRS BSM Fiscal Year 2004 and 2005 Expenditure Plan.




                                                                                         Page 23
                     To Ensure the Customer Account Data Engine’s Success,
                      Prescribed Management Practices Need to Be Followed

                                                                                                     Appendix VI


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
   business change.
Management Processes, which are organized into management areas and operate across the
  entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 24
                                      To Ensure the Customer Account Data Engine’s Success,
                                       Prescribed Management Practices Need to Be Followed

                                                       Enterprise Life-Cycle Processes


                                      IRS Governance and Investment Decision Management
    Management




                                               Program Management and Project Management

                                      Architectural Engineering / Development Coordination

                                                       Management Support Processes


                                                                                                    Business Processes




                                                                                                                             Operations & Support
                                                                                                            Applications
                  Vision & Strategy




                                                        Development
                                        Architecture




                                                                                    Deployment
                                                                      Integration
    Life Cycle




                                                                                                                    Data


                                                                                                 Organizational Change


                                                                                                 Technical Infrastructure


                                                                                                 Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture - This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.


                                                                                                                                                Page 25
                 To Ensure the Customer Account Data Engine’s Success,
                  Prescribed Management Practices Need to Be Followed

•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.


                                                                                           Page 26
                  To Ensure the Customer Account Data Engine’s Success,
                   Prescribed Management Practices Need to Be Followed

•      Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•      Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.
•      Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
       activities leading up to Milestone 5, the business solution is fully deployed, including
       delivery of training on use and maintenance. The primary decision at Milestone 5 is to
       authorize the release of performance-based compensation based on actual, measured
       performance of the business system.
                                                                                           Page 27
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed

                                                        Appendix VII


   Management’s Response to the Draft Report




                                                              Page 28
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed




                                                        Page 29
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed




                                                        Page 30
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed




                                                        Page 31
To Ensure the Customer Account Data Engine’s Success,
 Prescribed Management Practices Need to Be Followed




                                                        Page 32
